                            OFFICE OF
                     THE INSPECTOR GENERAL


                         U.S. NUCLEAR
                    REGULATORY COMMISSION



                        Use of the Internet at NRC

                    OIG-02-A-01        October 15, 2001




                       AUDIT REPORT




All publicly available OIG reports (including this report) are accessible through
                              NRC’s website at:
                   http://www.nrc.gov/NRC/OIG/index.html
                                              October 15, 2001




MEMORANDUM TO:                 William D. Travers
                               Executive Director for Operations



FROM:                          Stephen D. Dingbaum\RA\
                               Assistant Inspector General for Audits


SUBJECT:                       USE OF THE INTERNET AT NRC (OIG-02-A-01)


Attached is the Office of the Inspector General’s audit report titled, Use of the Internet at NRC.

This report reflects the results of our review to determine whether NRC employees’ use of the
Internet is appropriate, and in compliance with NRC policy. Based on Internet activity over an
eight day period in June 2001, at least 52 percent, and as much as 79 percent of employee
Internet activity was for personal use. Some personal use, such as looking at sexually explicit
web sites, was in direct violation of NRC policy. Personal use can also slow information
transfer from the Internet, affecting the ability of others to use the Internet for business reasons.
Because of the amount of personal use and the occurrence of prohibited activity, NRC needs to
enforce its May 2001 information technology policy covering personal Internet usage.

At an exit conference held on October 3, 2001, NRC officials generally agreed with the report’s
findings and recommendations. While agency officials chose not to provide a formal, written
response for inclusion in the report, they did provide editorial suggestions, which have been
incorporated where appropriate.

If you have any questions, please contact Corenthis Kelley at 415-5977 or me at 415-5915.

Attachment: As stated

cc:     John Craig, OEDO
R. McOsker, OCM/RAM
B. Torres, ACMUI
B. Garrick, ACNW
D. Powers, ACRS
J. Larkins, ACRS/ACNW
P. Bollwerk III, ASLBP
K. Cyr, OGC
J. Cordes, OCAA
S. Reiter, CIO
J. Funches, CFO
P. Rabideau, Deputy CFO
J. Dunn Lee, OIP
D. Rathbun, OCA
W. Beecher, OPA
A. Vietti-Cook, SECY
W. Kane, DEDR/OEDO
C. Paperiello, DEDMRS/OEDO
P. Norry, DEDM/OEDO
M. Springer, ADM
R. Borchardt, NRR
G. Caputo, OI
P. Bird, HR
I. Little, SBCR
M. Virgilio, NMSS
S. Collins, NRR
A. Thadani, RES
P. Lohaus, OSP
F. Congel, OE
M. Federline, NMSS
R. Zimmerman, RES
J. Johnson, NRR
H. Miller, RI
L. Reyes, RII
J. Dyer, RIII
E. Merschoff, RIV
OPA-RI
OPA-RII
OPA-RIII
OPA-RIV
                                                                       Use of the Internet at NRC


EXECUTIVE SUMMARY

    BACKGROUND
          The Internet provides computer access to an ever-expanding storehouse of
          electronic information through the mass connection of networked computers.
          Use of the Internet offers tremendous capabilities to employees in terms of
          access to a wide variety of information sources relevant to their official duties.
          However, along with tremendous advantages, the Internet provides access to a
          wide variety of information that may not be consistent with business needs and
          may be harmful or inappropriate for the work place.

    PURPOSE

          The Office of the Inspector General conducted this review to determine whether
          Nuclear Regulatory Commission (NRC) employees’ use of the Internet is
          appropriate and in compliance with NRC policy.

    RESULTS IN BRIEF

          Based on Internet activity over an eight-day period in June 2001, at least 52
          percent and as much as 79 percent of employee Internet activity was for
          personal use. Some personal use, such as looking at sexually explicit web sites,
          was in direct violation of NRC policy. Visits to sexually explicit web sites are
          significant because the sites’ contents may be offensive to others and could
          foster a hostile work environment, leading to potential legal liabilities for the
          agency. Personal use can also slow information transfer from the Internet,
          affecting the ability of others to use the Internet for business purposes.
          Because of the amount of personal use and the occurrence of prohibited activity,
          NRC needs to enforce and clarify its May 2001 information technology policy
          covering personal Internet usage.

    RECOMMENDATIONS

          This report makes five recommendations to the Executive Director for
          Operations to develop, issue, and communicate a revised Internet usage policy
          and to restrict prohibited use. Recommendations can be found at page 11 of this
          report.

    AGENCY COMMENTS

          At an exit conference held on October 3, 2001, NRC officials generally agreed
          with the report’s findings and recommendations. While agency officials chose
          not to provide a formal, written response for inclusion in the report, they did
          provide editorial suggestions, which have been incorporated where appropriate.




                                            i
                                   Use of the Internet at NRC




[Page intentionally left blank.]




               ii
                                                                                          Use of the Internet at NRC


TABLE OF CONTENTS

        EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i
        I        BACKGROUND . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
        II       PURPOSE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
        III      FINDING . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
                           NRC NEEDS TO ENSURE COMPLIANCE W ITH ITS
                            INTERNET USAGE POLICY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
        IV       SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10
        V        RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11
        VI       AGENCY COMMENTS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11


        APPENDICES
        A.       SCOPE AND METHODOLOGY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13
        B.       AGENCY DIAGRAM OF NRC’S FIREWALL . . . . . . . . . . . . . . . . . . . . 15




                                                    iii
                                   Use of the Internet at NRC




[Page intentionally left blank.]




              iv
                                                                       Use of the Internet at NRC


I. BACKGROUND

        In today’s workplace, more and more companies are depending on the Internet
        to provide or enhance communication. While the Internet is fast and
        inexpensive, Internet usage can pose significant risks if it is not managed or is
        abused.

        The various forms of Internet activity have become ingrained in most corporate
        cultures. Today, the Internet is used by roughly 90 million business workers in
        the United States (U.S.) (about two-thirds of all workers) and about 120 million
        workers outside the U.S. E-mail has replaced the telephone as the primary and
        preferred method of business communication for those with Internet access.

        The Internet provides computer access to an ever-expanding storehouse of
        electronic information through the mass connection of networked computers.
        Use of the Internet offers tremendous capabilities to employees in terms of
        access to a wide variety of information sources relevant to their official duties.
        However, along with tremendous advantages, the Internet provides access to a
        wide variety of information that may not be consistent with business needs and
        may be harmful or inappropriate for the work place. Abuse, misuse, and overuse
        by employees can:

        +      in egregious cases, leave employers vulnerable to lawsuits (downloading
               of sexually explicit material has been viewed as creating a hostile work
               environment);
,
        +      introduce various security issues, such as the release of confidential,
               proprietary, or otherwise sensitive information, or a download of
               unlicenced software or viruses;

        +      cause a decline in employee productivity; and

        +      strain network resources.

        To counter these risks, organizations can approach the issue from both
        behavioral and technological standpoints. Implementing a comprehensive
        Internet usage policy addresses the behavioral issues. Such a policy codifies
        usage guidelines and directives, designed to inform and educate employees
        about proper practices with regard to Internet activity. Organizations must also
        adopt technical measures, including:

        +      tools to monitor Internet activity to enforce policy and identify offenders;

        +      antivirus utilities to protect against malicious code at all potential points of
               infection;

        +      secure e-mail solutions to protect information traveling across the
               Internet; and


                                          1
                                                                               Use of the Internet at NRC



           +       archiving utilities and storage systems to ensure that messages are
                   deleted or retained as appropriate.

           A recent American Management Association survey found that more than three-
           quarters of major U.S. firms (77.7 percent) record and review employee
           communications and activities on the job, including Internet use. This figure has
           doubled since 1997. These firms monitor activity for a variety of reasons
           including (1) legal compliance, (2) legal liability, (3) performance review, (4)
           productivity measures, and (5) security concerns.


II. PURPOSE

           The Office of the Inspector General (OIG) conducted this review to determine
           whether Nuclear Regulatory Commission (NRC) employees’ use of the Internet
           is in compliance with policy. Appendix A provides details of the scope and
           methodology of this review.


III. FINDING

     NRC NEEDS TO ENSURE COMPLIANCE WITH ITS INTERNET USAGE POLICY

           Based on Internet activity from June 1- 8, 2001, at least 52 percent and as much
           as 79 percent of employee Internet activity is for personal use. Some personal
           use, such as looking at sexually explicit web sites, was in direct violation of NRC
           policy. Personal use can also slow information transfer from the Internet,
           affecting the ability of others to use the Internet for business purposes.
           Because of the amount of personal use and the occurrences of prohibited use,
           NRC needs to enforce its policy for personal Internet usage.

           Employee Use of the Internet Is Mostly for Personal Reasons

           The Federal Chief Information Officer Council issued Government-wide policy
           guidance on Internet usage in May 1999.(1) NRC’s revised information
           technology policy, including Internet use, issued in May 2001,(2) closely follows
           this guidance. Under NRC’s policy, personal Internet use is acceptable when it
           involves minimal or no additional expense to the Government, is performed on
           the employee’s non-work time, does not interfere with NRC’s mission or
           operation, does not violate the Standards of Ethical Conduct for Employees of


     1
           Recommended Executive Branch Model Policy/Guidance on Limited Personal Use of Government
           Office Equipment Including Information Technology, Federal Chief Information Officer Council,
           May 28, 1999.
     2
           NRC Management Directive 2.7, Personal Use of Information Technology, dated May 9, 2001.

                                                2
                                                                                Use of the Internet at NRC

    the Executive Branch regulations, and is not otherwise prohibited by law. Prior to
    the May 2001 information technology policy, NRC restricted employees’ use of
    the Internet to business only.

    NRC maintains an Internet connection through an Internet service provider to
    serve the needs of its employees. Employee computers connected to an NRC
    network are always connected to the Internet. NRC then provides a single
    control point for all employee Internet use: a proxy server that is part of NRC’s
    firewall system. All information from Internet sites accessed by NRC employees
    comes through the proxy server before being delivered to individual computers.
    Appendix B provides a diagram of NRC’s firewall system. NRC’s firewall system
    creates a log reflecting all of the Internet activity of employees. The log also
    records a number of pieces of information related to each Internet access.

    OIG reviewed employee(3) Internet use over an eight-day period in June 2001, a
    period shortly following issuance of NRC’s revised policy. To analyze employee
    use of the Internet, OIG used data from NRC’s firewall log that provided the
    amount of information transferred(4) through the proxy server. Internet activity
    was categorized as business or personal or other based on the material at the
    web site. In addition, some sites could have been used for either business or
    personal reasons (Mixed Use in this report). Examples are news sites and
    search engines.

    The Office of the Chief Information Officer (OCIO) also routes a significant
    amount of information through the proxy server in monitoring network conditions
    throughout NRC’s local and wide-area networks. And eight percent of the
    activity is the result of advertising and other unrelated images that are displayed
    when viewing web pages. The following chart shows a breakdown of Internet
    use at NRC.(5)




3
    Employee use includes use of the Internet by NRC contractors. Contractors are not specifically
    covered by NRC’s Internet usage policy.
4
    This information transfer is referred to in this report as activity and indicates the actual number of
    bytes of information that were transferred to an employee’s computer through the proxy server.
    Activity reflects the actual burden of Internet use on NRC’s systems.
5
    Results discussed in this report are based on analysis of a sample representing about 75 percent
    of all Internet activity.


                                             3
                                                                            Use of the Internet at NRC




                                Breakdown of Internet Usage




                        Mixed Use
                           16%                                              OCIO Use
              Ads/Images
                                                                              34%
                  8%




                         Personal                                   Business
                           30%                                        12%




    As the chart indicates, the two largest users of NRC’s Internet system are OCIO,
    to monitor the status of its networks(6), and employees for personal reasons. The
    advertising and images loaded with Web pages are a large percentage of the
    activity coming through NRC’s Internet connection.




6
    OIG informed OCIO of these results and OCIO is currently evaluating how it can reroute this traffic
    to reduce the burden on the proxy server.



                                            4
                                                          Use of the Internet at NRC



To obtain statistics solely on employee Internet usage, OIG eliminated the OCIO
monitoring activity and Ads/Images from the analysis. Activity in those
categories does not reflect the nature of sites accessed by employees. The
following chart then shows how employees are using the Internet.




                Breakdown of Employee Use



            Mixed Use                                Business
               27%                                     21%




                                          Personal
                                           52%




                                5
                                                                          Use of the Internet at NRC



    The Mixed Use category shown in the previous chart is dominated by employees
    accessing sites providing local and national news such as the Washington Post,
    CNN, and USA Today. Those sites were not placed in either the business or
    personal use category because OIG found no completely sound basis for doing
    so.(7) Such sites could be potentially used for either business or personal
    reasons. While OIG did not categorize these sites, the following chart provides
    the reader the results of allocating different percentages of Mixed Use activity to
    business or personal use. If the Mixed Use activity is eliminated, the ratio of
    business to personal activity is 27 percent to 73 percent. Allocating Mixed Use in
    this same ratio then results in no effect. As shown in this chart, at least 52
    percent and as much as 79 percent of employee Internet activity was for
    personal use.




             Alternative Allocations of Mixed Use
                        80                  79
                                      66 73
                        60     52
                              48
                        40
                                 34
                        20                27
                                                 21                   Resulting Total Business Use
                         0                                            Percent
                             100/0 50/50                              Resulting Total Personal Use
                                         27/73 0/100                  Percent

                         Possible
                  Business/Personal Ratio




7
    The information viewed by employees at each news and search engine site can be specifically
    determined and the activity categorized as business or personal. However, that requires
    examining tens or hundreds of thousands of web pages and was beyond OIG’s resource
    capabilities.

                                          6
                                                                             Use of the Internet at NRC




                                     Breakdown of Personal Use




                                       Sexually Explicit
                           Relationships                          Shopping
                                             5%
                        Sports  7%                                  18%
                         10%



              Entertainment                                                   Financial
                  11%                                                           17%

                      Web-based Email                         Misc
                           16%                                16%




    A further breakdown of the 52 percent of Internet activity categorized above as
    personal use is shown in the above chart. As shown, employees accessed a
    wide variety of sites. In addition, a significant number of individuals, including
    contractors, abused the May 2001 usage policy. For example, more than 25
    individuals used NRC’s Internet connection and Government computers to
    access sexually explicit web sites.(8) In addition, a number of individuals
    accessed other sites potentially in violation of NRC policy, including gambling
    and hate sites. Visits to these types of web sites are significant because the
    sites’ contents may be offensive to others and could foster a hostile work
    environment, leading to potential legal liabilities for the agency. Additionally, the
    risk of liability could increase without active enforcement of the agency’s policy.




8
    Based on the first week’s results, review of prohibited activity was expanded to include information
    from May 21 through June 8, 2001. This prohibited activity was referred to OIG’s investigative staff.

                                               7
                                                              Use of the Internet at NRC

The following chart provides a breakdown of business use. OIG considered all
travel and weather, and all IT sites as business.



                Breakdown of Business Use



                             Misc
                             9%
                                                            U.S. Gov't
                                                              42%
          Travel &
          Weather
            35%
                                     IT Sites
                                       14%




The following table shows the ten sites with the most activity accessed for either
business, personal, or a combination of personal and business reasons.


      Internet Address                          Use              Category
    1 www.washingtonpost.com                    Mixed Use        news
    2 www.cnn.com                               Mixed Use        news
    3 home.netscape.com                         Mixed Use        news
    4 www.sportingnews.com                      Personal         sports
    5 aolmail.aol.com                           Personal         web-based e-mail
    6 www.geocities.com                         Mixed Use        news
    7 www.usatoday.com                          Mixed Use        news
    8 trading.etrade.com                        Personal         financial
    9 Members.BlackPlanet.com                   Personal         relationships
  10 www.ebay.com                               Personal         shopping

Personal use can also affect system performance because, if substantial, it can
considerably slow information transfer from the Internet, affecting the ability of
others to use the Internet for business purposes. An agency official stated that

                                 8
                                                                                Use of the Internet at NRC



     an increase in Internet transactions put a significant load on the current Internet
     equipment and resulted in Internet access problems agencywide.(9) The official
     told OIG that the problem would, hopefully, be addressed by a contractor in the
     next fiscal year.

              Additional Concerns

     NRC does not monitor Internet usage and does not screen for all potentially
     harmful activity.(10) As a result, in addition to being able to access prohibited
     material, employees are able to download files from the Internet that NRC does
     not allow employees to obtain via e-mail. Without a policy to address potentially
     damaging Internet activity and a screening process to enforce that policy, the
     agency puts itself at risk for significant Internet-related losses.

     OIG verified that some potentially harmful files can be downloaded via the
     Internet. For example, OIG downloaded a Visual Basic Script file(11) from a
     reliable Internet site.(12) OIG sent the same file into NRC’s network e-mail system
     via the Internet. When sent via e-mail, the file was identified as potentially
     harmful and removed from the e-mail message. A warning generated by the e-
     mail system indicated the potentially damaging nature of the file. Allowing such
     files to be downloaded from Internet sites could allow employees to either
     intentionally or unintentionally download potentially harmful files.

     Executable files are one of the primary sources for virus propagation.(13) In
     addition, users downloading unauthorized executable files may expose the
     agency to issues of legal liability if the software is unlicenced. NRC’s Internet
     usage policy prohibits the downloading of executable files. However, NRC does
     not actively restrict such downloads, such as stopping them at the firewall. The
     following table provides examples of the executable files that NRC employees
     downloaded from the Internet during the period reviewed.




9
     While NRC’s connection to the Internet has sufficient capacity for its current load, internal
     configuration problems are resulting in poor performance during peak usage periods.
10
     NRC officials told OIG they run a virus scan on Web-based e-mail and that the firewall system also
     filters certain types of content such as Java and ActiveX which are potentially malicious.
11
     Visual Basic Script (VBS) is a programming language that can invoke any system
     function--including starting, using and shutting down other applications without user knowledge.
     VBS programs can be embedded in certain files and provide active content via the Internet.
12
     The site was Microsoft. OIG first downloaded the file to a floppy disk and scanned it for harmful
     content.
13
     An executable file is contrasted with a document or data file and is usually executed by
     double-clicking its icon or a shortcut on the desktop. The vast majority of known viruses infect
     executable files. Most infected files are transmitted via e-mail.

                                              9
                                                                           Use of the Internet at NRC



              Compaq diagnostic software for WIN95/98

              Flashplayer - enables display of certain animated material

              WebShots screensaver

              Acrobat Reader software for Palm computers

              Microsoft Instant Messenger

              AOL (America Online) Instant Messenger

        AOL Instant Messenger was downloaded a number of times by NRC employees
        during the period reviewed, an activity prohibited by current policy if the software
        is unauthorized. Security and consulting firm @Stake has issued a security
        advisory warning against possible risks associated with AOL Instant Messenger.
        According to @Stake, a security weakness would allow an attacker, through e-
        mail or a malicious Web site, to remotely take control of a machine with AOL
        Instant Messenger installed; the program does not even have to be in use.


IV. SUMMARY

        NRC employees are allowed to access information technology, including the
        Internet for personal purposes when that use is in accord with NRC’s minimal
        use policy. Other than OCIO monitoring tools, use of the Internet is, for the most
        part, personal and is affecting system performance. In addition, prohibited
        activity is occurring. However, NRC does not currently monitor Internet activity.

        Granting employees access to the Internet is an effective business tool. Misuse
        of the Internet, however, can diminish productivity and increase
        telecommunications demands. To minimize the misuse of the Internet,
        management must take actions to increase employee’ awareness of the impact
        of misuse, monitor use, and block prohibited sites and activity. In addition,
        management must be proactive in establishing a policy that reflects all uses and
        their implications to both employees and contractors. Failure to do so leaves the
        agency vulnerable to threats posed by malicious files and vulnerable software,
        the download and use of unlicenced software, and the potential legal liability of
        such activities.




                                          10
                                                                    Use of the Internet at NRC



V. RECOMMENDATIONS

        OIG recommends that the Executive Director for Operations:

        1.     Initiate monitoring of Internet activity.

        2.     Review and clarify MD 2.7 to address Internet activity not currently
               covered, such as Visual Basic Script file type downloads.

        3.     Revise NRC Management Directives, as appropriate, to ensure NRC’s
               Internet use policy covers persons other than NRC employees who use
               NRC computers to access the Internet.

        4.     Restrict prohibited Internet activity using software or other means.

        5.     Issue a Yellow Announcement, or other appropriate communication,
               advising employees and other affected users of the agency’s revised
               policy and emphasizing that management will not tolerate prohibited
               activity.


VI. AGENCY COMMENTS

        At an exit conference held on October 3, 2001, NRC officials generally agreed
        with the report’s findings and recommendations. While agency officials chose
        not to provide a formal, written response for inclusion in the report, they did
        provide editorial suggestions, which have been incorporated where appropriate.




                                          11
                                   Use of the Internet at NRC




[Page intentionally left blank.]




              12
                                                                               Appendix A

SCOPE AND METHODOLOGY

        The scope of this audit was generally limited to analysis and evaluation of the
        use of the Internet during eight days in June 2001. To perform this review and
        build a profile of employee usage, OIG obtained firewall logs from the agency for
        the period under review. OIG determined the amount of information transferred
        from each Web site using Microsoft Access and IDEA software. This information
        transfer (termed activity) indicates the actual number of bytes of information that
        were transferred to an employee’s computer through the proxy server. Activity
        reflects the actual burden of Internet use on NRC’s systems. OIG analyzed
        employee Internet usage by reviewing the 500 Web sites with the most activity.
        Those sites represented about 75 percent of all Internet activity for the period
        reviewed.

        OIG trimmed each full Internet address shown in the firewall log to a base
        address and reviewed the material at that address to evaluate it’s probable use.
        For example, the Internet address http://www.nrc.gov/NRC/WHATIS/directio.html
        would be evaluated based on the content at http://www.nrc.gov. Where the
        base address did not provide sufficient information about the content available at
        a Web page, OIG looked at the full address(es). The Internet activity reviewed
        represented use by about 2,950 NRC employees and contractors.

        Based generally on the material at the main web page for each site accessed by
        employees, OIG determined whether use was business, personal, or a
        combination of personal and business use. OIG did not determine whether
        employees were spending inappropriate amounts of time using the Internet for
        personal reasons because firewall logs do not provide sufficient information to
        make such a determination.

        OIG reviewed NRC’s current Internet usage policy and the proposed policy from
        the Federal Chief Information Officer Council. OIG also met with NRC officials
        in the Offices of the Executive Director for Operations and the Chief Information
        Officer.

        This audit was conducted from June through August 2001 in accordance with
        generally accepted Government auditing standards and included a review of
        management controls related to the objectives of the audit. The major
        contributors to this report were:

        Corenthis Kelley, Team Leader
        Robert Moody, Audit Manager
        Beth Serepca, Audit Manager




                                        13
[Page intentionally left blank.]




              14
                                   Appendix B

AGENCY DIAGRAM OF NRC’S FIREWALL




                            15
